National      Office of
Science      Inspector
Foundation     General




               Semiannual
                 Report to
                 Congress
                          March 2011
About The National Science Foundation...                                                           About the Cover...

                                                                                                   Original photo of a blue iguana taken by OIG Investigative Scientist Kenneth L. Busch, Ph.D., at
The National Science Foundation (NSF) is charged with supporting and strengthening all
                                                                                                   the Shedd Aquarium in Chicago.
research discplines, and providing leadership across the broad and expanding frontiers of
science and engineering knowledge. It is governed by the National Science Board which sets
agency policies and provides oversight of its activities.


NSF invests approximately $7 billion per year in a portfolio of more than 35,000 research and
education projects in science and engineering, and is responsible for the establishment of
an information base for science and engineering appropriate for development of national and
international policy. Over time other responsibilities have been added including fostering and
supporting the development and use of computers and other scientific methods and
technologies; providing Antarctic research, facilities and logistic support; and addressing
issues of equal opportunity in science and engineering.


And The Office of the Inspector General...


NSF’s Office of the Inspector General promotes economy, efficiency, and effectiveness in
administering the Foundation’s programs; detects and prevents fraud, waste, and abuse within
the NSF or by individuals that recieve NSF funding; and identifies and helps to resolve cases of
misconduct in science. The OIG was established in 1989, in compliance with the Inspector
General Act of 1978, as amended. Because the Inspector General reports directly to the
National Science Board and Congress, the Office is organizationally independent from the
agency.
                                                                          Table of Contents
Audits and Reviews........................................................................... 7
NSF’s Actions to Address Recommendations for Workforce Management Change .........7
Audits of NSF Awards and Internal Controls .....................................................................8
Unallowable Contingency Costs and Inadequate Accounting System ..............................8
Recovery Act and Effort Reporting .................................................................................. 12
Financial Statements Audit .............................................................................................. 13
A-133 Audits .................................................................................................................... 15


Investigations ................................................................................. 19

Civil and Criminal Investigations ...................................................................................... 19
Research Misconduct Investigations ...............................................................................23
Management Implication Reports ....................................................................................28


OIG Management Activities ........................................................... 31
Congressional Testimony ................................................................................................ 31
Outreach ..........................................................................................................................32


Statistical Data ................................................................................ 35

Appendix ......................................................................................... 45

Peer Reviews .................................................................................................................. 45
[Blank Page]
                From the Inspector General

This Semiannual Report to Congress highlights the activities of the National
Science Foundation, Office of Inspector General for the six months ending
March 31, 2011. During this period, 24 audit reports were issued, five of which
questioned $4 million and one of which identified $62 million of unallowable
contingency costs in a proposed construction budget for the Advanced Technol-
ogy Solar Telescope. More than $20 million of these unallowable contingency
costs were America Recovery and Reinvestment Act funds. In addition, our
investigative staff closed 32 civil/criminal investigations, had six research
misconduct cases result in findings by NSF, and recovered $1,948,754 for
the government. Further, our investigations resulted in four convictions, four
government-wide debarments, and one government-wide suspension.

In February, I testified before the House Commerce, Justice, Science Ap-
propriations Subcommittee regarding some of the top management challenges
facing the Foundation, as well as reviews my office has conducted of NSF’s
operational expenses. Since NSF’s primary mission activity is accomplished
through funding external awardees, the Foundation’s success is largely
dependent on effective grant and contract administration. Accordingly, we are
focusing significant audit work on two of NSF’s top management challenges —
improving grant administration and strengthening contract administration. We
have also identified controls over contingency funds as an emerging challenge,
and we have recommended that the Foundation require its awardees to remove
unallowable contingencies from their proposed budgets and that NSF stop its
current practice of allowing awardees to manage contingency funding. NSF
has been responsive to our recommendations pertaining to grant and contract
administration, and we are working with NSF to resolve contingency related
findings.

In light of the current economic climate, it is essential that we also examine how
NSF spends money internally for its own operations and activities. In this vein,
we recently reviewed expenditures in two areas — refreshments provided to
individuals participating in meetings at NSF and travel expenses under NSF’s
Independent Research and Development Program — both of which could yield
cost savings with additional oversight and control. Our findings on expenditures
for refreshments are detailed in this report; our September 2010 report included
our findings on travel expenses.

Our investigative work continues to be a vital component of our efforts to
prevent and detect fraud, waste, and abuse within NSF and by individuals or
entities that receive NSF funding. Notable examples in the past six months
include a case in which the president and executive director of a research
company were required to pay over $120,000 in restitution, and each was
debarred for ten years after instructing their employees to bill time to NSF
projects regardless of how much time they spent on those projects. In another
case, three universities returned nearly $200,000 to NSF for improper charges
to NSF awards.
Finally, in an effort to be more transparent, we are now making our investigative closeout memo-
randa publicly available on our website. These memos describe the nature of the investigation
and whether it resulted in an administrative, civil, or criminal action. As of March 31, we have
uploaded 2,000 closeout memos onto our website covering over 20 years worth of investigative
activity. We have organized the cases into searchable categories such as grant fraud, contrac-
tor fraud, and computer intrusion, in order to facilitate the public’s access to this information.

I look forward to a continued partnership with the Congress and with NSF in advancing our
shared mission of safeguarding federal tax dollars awarded by the Foundation and in protecting
the integrity of NSF’s programs and operations.
                                                     Report Highlights
•	   An audit of NSF’s actions to address over 100 recommenda-
     tions for workforce management change found that NSF has
     completed action on only 11 recommendations and that its
     process for change is informal, undocumented, and ad-hoc.
     NSF has outlined steps it has started to take to address work-
     force management issues.

•	   An audit of four awards at one institution and of three awards at
     another institution identified significant compliance and internal
     control deficiencies that led to more than $3 million in ques-
     tioned costs. These findings are particularly critical because
     one of these institutions had 382 active NSF awards totaling
     over $160 million, and the other had more than six NSF awards
     totaling over $23.7 million.

•	   An audit of the $298 million cost proposal to construct the
     Advanced Technology Solar Telescope included $62 million in
     unallowable contingency costs and an undetermined amount
     of contingency escalation costs. Problems with contingencies
     in this award are similar to those reported in our September
     2010 semiannual in which a non-profit organization’s proposed
     budget included $88 million in unallowable contingency costs.

•	   Our investigation involving the president and executive director
     of a research company that had received a number of NSF
     grants led to the president being required to pay over $105,000
     in restitution and being sentenced to a month in prison. The
     executive director was required to pay over $5,000 in restitution,
     and both executives and the company were debarred for ten
     years. These executives were instructing employees to bill time
     to NSF projects regardless of how much time they spent on the
     projects.

•	   In response to our recommendation, NSF terminated a
     Small Business Technology Transfer grant to a company that
     improperly accepted the grant while the company was under a
     Notice of Proposed Debarment from another agency, making
     it ineligible to receive any federal grants. The company spent
     $100,000 of the grant which was funded under the American
     Recovery and Reinvestment Act. We referred this matter to the
     Department of Justice, and because the company did not take
     any steps to repay the money, and the fact that we had ongoing
     concerns with the company’s present responsibility, we recom-
     mended that NSF debar the company.




                                                                          5
Report Highlights


                    •	   Our investigation of a former PI revealed that he had charged significant
                         personal purchases to NSF awards and lied to his supervisor to cover up
                         these charges. Based on our recommendation, NSF suspended the former
                         PI government-wide so that he could not receive any federal awards for the
                         duration of our criminal investigation.




               6
                                                  Audits & Reviews
Twenty four audit reports were issued during this reporting period.
Five of these audits contained a total of $4 million in questioned
costs, including nearly $59,000 in cost-sharing shortfalls. One
audit of a proposed budget also found $62 million of unallowable
contingency costs. We recommended that NSF, in consultation
with the OIG, resolve the audits’ recommendations with the
awardees.


NSF Needs to More Effectively Address
Recommendations for Workforce Management
Change

The Senate Committee Report accompanying NSF’s 2011 ap-
propriations bill, requested that the OIG analyze “NSF actions to
improve workforce management and the work environment for
employees.” Congress, OPM, the OIG, and NSF management and
staff have all expressed concerns about workforce management
and the work environment at NSF in recent years. NSF’s response
to these concerns generally has been to assemble working groups
of NSF staff to assess the issues and recommend needed correc-
tive action.

Between September 2009 and August 2010, internal and external
efforts to identify workforce management improvements resulted
in NSF management having 102 recommendations relevant to our
audit objectives. As of December 1, 2010, NSF had completed
action on only 11 of the 102 recommendations.

We found that NSF does not have an effective process for
implementing the workforce management changes called for in
the recommendations it received. The Foundation’s process for
addressing workforce management change is informal, undocu-
mented, and ad-hoc. Specifically, NSF senior management has not            HIGHLIGHTS
accepted or rejected; prioritized; tracked; managed; or implemented
the bulk of the recommendations for improvement. NSF’s work-               NSF’s Actions to Address
force management change process also suffers because it lacks a              Recommendations for
champion with both the time and the authority to lead in this area.          Workforce Management
                                                                             Change ............................7
NSF’s failure to make decisions to improve workforce manage-               Audits of NSF Awards and
                                                                             Internal Controls ..............8
ment has led to continued attention from Congress and may have
                                                                           Unallowable Contigency Costs
contributed to a decline in employee satisfaction at the Foundation.
                                                                             and Inadequate Accounting
We recognize that it is not reasonable to expect NSF to implement            Systems ...........................8
102 recommendations simultaneously, and we are not saying that             Recovery Act and Effort
it should have done so. However, it is reasonable to expect NSF              Reporting .........................12
management to set priorities and milestones and implement an               Financial Statement Audit....13
action plan in a structured approach to address workforce issues.          A-133 Audits.........................15

                                                                       7
Audits & Reviews


                   An effective process and structure, combined with strong leadership on the part
                   of the champion for this change, would help NSF identify and implement those
                   actions that should result in the most effective improvements in its workforce
                   management and work environment for employees.

                   We recommended that NSF develop and document policies and procedures
                   and utilize a structured approach to manage and implement workforce and
                   workplace change. NSF generally agreed with our recommendation and
                   has outlined steps it has begun to take to address the issues surrounding its
                   management of human capital. Among other things, NSF stated that while it is
                   experimenting with how best to implement the role of the Chief Human Capital
                   Officer (CHCO), the CHCO will work with the Deputy Assistant Directors and
                   Executive Officers (DADEO) group to implement human capital management
                   recommendations. NSF stated that by August 2011, it would make a decision
                   on the effectiveness of using the DADEO group in human capital management
                   planning and decision making.

                   We are concerned that involving so many people in the process will impede,
                   rather than enhance, the speed of change. To have a clear, objective basis by
                   which to judge this effort in August, NSF should articulate how it will gauge the
                   success or failure of this endeavor now, so that all involved will know what is
                   expected of them during this trial period.


                   Audits of NSF Awards and Awardees Identify $62 Million of Funds
                   Put to Better Use and $4 Million of Questioned Costs

                   Of the 24 audit reports OIG issued during this semiannual period, the follow-
                   ing audits of NSF awards and awardees included $62 million of unallowable
                   contingency costs in a proposed budget and $4 million in questioned costs on
                   funded NSF awards. In addition, these reports noted significant weaknesses
                   in awardees’ internal controls. In one case, the accounting system was not
                   adequate to manage $765 million of NSF funds. We also reviewed quarterly
                   reports, required by the Recovery Act, at seven NSF awardees and found
                   several areas in which data were not correctly reported.


                   $62 Million in Unallowable Contingency Costs in AURA’s
                   Unauditable Construction Proposal for Advanced Technology
                   Solar Telescope

                   An audit of the $298 million cost proposal by the Association of Universities for
                   Research in Astronomy (AURA) to construct the Advanced Technology Solar
                   Telescope disclosed significant deficiencies that rendered the proposal unac-
                   ceptable for audit. As a result, NSF does not have assurance that the proposal
                   presents an acceptable basis for funding. The inadequate proposal was based
                   on unsupported and outdated estimates for materials and subcontracts. It
                   included $62 million in unallowable contingency costs and an undetermined
                   amount of contingency escalation costs built into the material and subcontract
                   estimates. In addition, the proposal included unsupported direct labor and
                   indirect costs.


              8
                                                            OIG Semiannual Report   March 2011


In response to the audit, AURA stated that, prior to submitting the proposal,
NSF had reviewed and accepted its budgeted costs, including the contingen-
cies. However, the contingences were unallowable, according to federal
regulations.

It was recommended that NSF request that AURA resubmit an adequate
construction cost proposal without budgeted contingencies, have the proposal
audited, and base NSF funding on the results of audit. It was also recom-
mended that NSF internally control contingency funds, and not award such
funds until evidence of a demonstrated need is provided.

The problems with contingencies in this award are in addition to those
discussed in our September 2010 semiannual. In that case, we reported that
a non-profit organization, Consortium for Ocean Leadership (COL), proposed
a $386 million budget with $88 million of unallowable contingency costs,
which were included, at NSF’s direction, for its Ocean Observatories Initiative
cooperative agreement. As a result of these two audits, in the last two semian-
nual periods, we have disclosed a total of at least $150 million of unallowable
contingency costs in proposed budgets for two awardees’ construction projects.


Significant Compliance and Internal Control Deficiencies Lead to
Nearly $1.9 Million in Questioned Costs

An audit of four awards totaling $18.6 million NSF-funded costs and $8.1 million
of cost share claimed by the Louisiana Board of Regents (LBR) and its sub-
awardees, disclosed significant compliance and internal control deficiencies in
LBR’s financial management of NSF grant funds. These deficiencies resulted in
nearly $1.9 million in questioned NSF-funded costs and more than $152,000 of
unsupported cost sharing. These findings are particularly significant because
as of March 2009, LBR had six awards from NSF totaling over $23.7 million. If
the practices that contributed to the questioned costs are not corrected, unsup-
ported and unallowable costs could continue to be claimed on current and
future NSF awards.

Internal control deficiencies led to labor charges that were claimed on NSF
awards for work performed on other projects, inadequately supported subaward
costs, and NSF-funded equipment that was not used. Recommendations
included that LBR consider expanding on-site monitoring visits to sub-awardees
and that LBR improve its effort reporting system. The LBR generally concurred
with the recommendations and agreed to expand its monitoring system to
include additional sub-awardees, improve its timekeeping system, and return or
credit funds inappropriately charged to NSF awards. However, it disagreed with
the questioned costs from a sub-awardee.


Weaknesses in Financial Management Result Approximately $1.7
Million in Questioned Costs

An audit of three awards totaling $17.5 million at Ohio State University (OSU)
found five significant compliance and internal control deficiencies. These find-
ings are particularly critical because in 2009, OSU had 382 active NSF awards
                                                                                    9
Audits & Reviews


                   totaling over $160 million. The auditors questioned approximately $1.7 million
                   as a result of the deficiencies identified. Specifically, the audit disclosed that
                   OSU: lacked an effective system for monitoring costs claimed by subawardees;
                   did not adequately monitor cost share commitments; did not identify participant
                   support costs; did not consistently have effort reports certified in a timely man-
                   ner by individuals with sufficient knowledge to ensure the reports’ reliability;
                   and did not provide adequate training to ensure that personnel were aware of
                   compliance requirements for NSF awards.

                   Recommendations included that OSU expand its sub-awardee risk assess-
                   ment and monitoring processes and train employees who certify time spent
                   on federal awards. Although OSU did not agree with the questioned costs, it
                   generally agreed with the internal control recommendations and has imple-
                   mented procedures to correct its most significant effort reporting deficiencies.


                   Inadequate Sub-Awardee Monitoring Leads to Approximately
                   $400,000 in Questioned Sub-Award and Cost Sharing Costs

                   An audit of one NSF Center award representing nearly $27.8 million in costs
                   and $8.7 million in cost sharing claimed by the Trustees of Boston University
                   questioned $412,400 in sub-award costs and identified $174,397 in unallowable
                   sub-award cost sharing. Questioned sub-awardee costs included unallowable
                   moving expenses, management fees, unapproved foreign travel that included
                   side trips to resort areas, and conference give-aways, such as calculators
                   and mouse pads. These findings are particularly significant because Boston
                   University is a major NSF grant recipient with 228 active awards totaling nearly
                   $140 million.

                   The auditors identified three major compliance and internal control deficien-
                   cies: inadequate sub-award monitoring, inadequate internal controls over cost
                   share, and inadequate controls over payments to terminated Center personnel
                   and maintenance of sick leave balances. The University generally agreed with
                   the recommendations to improve its procedures for sub-award monitoring and
                   recording cost share and employee sick leave balances.


                   Inadequate Controls Result in More Than $350,000 in Questioned
                   Costs

                   We conducted an audit to determine whether North Carolina Central University
                   (NCCU) had adequate internal controls to ensure accountability and steward-
                   ship of NSF funds. The audit concluded that the University’s controls for
                   monitoring costs, compliance with travel regulations, equipment purchases,
                   and charges for payroll and fringe benefits to NSF grants, were inadequate.
                   As a result, the auditors questioned $351,340, or 31 percent, of the $1,119,675
                   total costs NCCU claimed in one fiscal year. In addition, the auditors identified
                   $4,193 of cost sharing requirements not met.




             10
                                                              OIG Semiannual Report   March 2011


We recommended that NSF resolve the questioned costs and follow up to
ensure that NCCU adequately addresses the deficiencies identified. The
University agreed that it had not applied the proper indirect cost rate to NSF
awards.

University Needs to Strengthen its Controls over Sub-recipient
Monitoring

An audit of four awards at Rice University found that the University needed to
strengthen its internal controls over sub-recipient monitoring. The audit found
that Rice needed to document the results of pre-award risk assessments and
increase post-award oversight to ensure that costs claimed on NSF awards are
reasonable and allowable.

In addition, Rice did not comply fully with the reporting requirements for inven-
tion disclosure and patent application. Therefore, NSF may not have current
information regarding all inventions and patents developed, which is important
for evaluating award progress.

The audit recommended that Rice implement ongoing risk-based monitoring of
sub-awardees and procedures for invention disclosure and patent application.

Rice agreed with the finding on invention disclosure and patent application
and is revising training in this area. The University stated that is taking steps
to strengthen sub-award monitoring but did not agree that this constituted a
significant deficiency.


Accounting System Used by AURA is Inadequate to Manage NSF
Funds

The Association of Universities for Research in Astronomy (AURA) receives
and manages NSF awards totaling approximately $765 million, on which the
Association receives payments in advance of expenditures. The accounting
system used by AURA on its NSF awards is managed by the National Optical
Astronomy Observatory (NOAO), a division of AURA.

An audit of the accounting system used to generate AURA’s proposals, includ-
ing the $298 million Advanced Solar Technology Telesceope, disclosed eight
significant deficiencies. These deficiencies included: lack of identification of
the receipt of funds by project or as Recovery Act funds, inadequate purchase
order and equipment files and lack of agreement between the amounts in
AURA’s equipment files and its financial accounting records. In addition, AURA
lacked adequate policies and procedures for generating reliable proposals;
monitoring subawardees; determining the allowability and reasonableness of its
costs; and meeting cost sharing commitments.

As a result of these deficiencies, the audit concluded that NOAO should not
receive additional NSF awards or advance payments until these deficiencies
are corrected.



                                                                                      11
Audits & Reviews


                   The audit recommended that NSF require AURA to take immediate action to
                   correct the accounting system deficiencies identified and consider withdrawing
                   AURA’s ability to receive advance payments until AURA’s accounting system
                   meets federal standards for fund control and accountability.


                   Quarterly Reports from Recipients of Recovery Act Funds Were
                   Generally Accurate and Complete

                   Recipients of Recovery Act funds are required to submit quarterly reports that
                   include data related to the projects funded and the impact of these projects
                   on job creation. Our review covered eight data elements required in quarterly
                   reports: number of jobs, amount of ARRA funds received, ARRA expenditures,
                   vendor payments, sub-award amounts, project description, project status,
                   and final report. It is important for this information to be accurate to meet the
                   Recovery Act’s goals of accountability and transparency. The development of
                   effective processes, internal controls, and oversight functions were important
                   elements for ensuring data quality. We examined this data as reported by seven
                   institutions that received ARRA funds.

                   We concluded that the larger institutions we examined -- University of Alaska-
                   Anchorage, New Jersey Institute of Technology, University of Washington, and
                   West Virginia University Research Corporation -- had generally established
                   appropriate processes for compiling quarterly data in compliance with ARRA
                   reporting requirements, but needed to improve their data quality review
                   processes to prevent errors during the reporting process. We found that
                   the smaller institutions we reviewed -- American Museum of Natural History,
                   California Academy of Sciences, and the Institute of Global Environment
                   and Society did not appear to have a clear understanding of ARRA reporting
                   requirements, which affected the accuracy and completeness of their quarterly
                   data.

                   We identified four areas where several of the seven NSF recipients were not
                   accurately or completely reporting quarterly data that were important to ARRA
                   accountability and transparency goals. These areas were: number of jobs
                   created, vendor payments, expenditures, and funds received. It is important to
                   note that the exceptions identified during our review occurred primarily because
                   each institution was in the early phases of developing and implementing its
                   ARRA reporting processes.

                   We also reviewed these institutions’ procedures for ensuring that entities
                   that have been suspended or debarred did not receive ARRA funds. While
                   it is important to note that audit testing did not disclose that these institutions
                   awarded ARRA funds to any such entities, we recommended that two of the
                   institutions strengthen their procedures.


                   Improvements Needed in Effort Reporting and Cost Sharing
                   Processes

                   A review of federal grant management processes at California State University-
                   Fresno disclosed two areas that were not in compliance with Federal require-
                   ments—labor effort reporting and cost sharing. Fresno was using a manual,
             12
                                                              OIG Semiannual Report    March 2011


paper-based effort reporting system. Given the manual nature of the process
and the lack of established controls to validate the accuracy of employee-
developed effort reports, there is a high potential for mistakes in the charging
of labor costs to NSF and other sponsored projects. The control weaknesses
in Fresno’s system raised concerns about the reliability of the $1.2 million of
budgeted salary charges to NSF grants.

In addition, Fresno has not adequately tracked its cost sharing commitments
as required by Federal grant regulations. Fresno concurred with the findings
recommendations and is developing processes to address them.


Financial Statement Audit Reports
Establishing and maintaining sound financial management is a top priority for
the federal government because agencies need accurate and timely information
to make decisions about budget, policy, and operations. The Chief Financial
Officer’s Act requires agencies to prepare annual financial statements which
must be audited by an independent entity.


NSF Receives Unqualified Opinion on Financial Statements for the
Thirteenth Consecutive Year, but Monitoring of Cost
Reimbursement Contracts Should be Strengthened

Under a contract with the OIG, Clifton Gunderson LLP conducted an audit of
NSF’s FY 2010 financial statements. Clifton Gunderson issued an unqualified
opinion on the financial statements; however, the auditors repeated a significant
deficiency in monitoring of cost reimbursement contracts. NSF obligated $283
million for cost reimbursement contracts in FY 2010, of which $204 million in
contracts allowed advance payments for three contractors, with the majority
going to one contractor. Cost reimbursement contracts are high-risk because
of the potential for cost escalation. Advanced payment contracts are a higher
risk because contractors are paid before the work has begun. Without improve-
ments in these areas, NSF cannot ensure the reasonableness and accuracy of
costs paid on these contracts.

Specifically, the auditors noted issues in the following areas:

•	   Delays in securing Incurred Cost Audits for NSF’s largest and riskiest
     contracts.
•	   Problems monitoring the receipt, audit, and approval of Cost Accounting
     Standards (CAS) disclosure statements and incurred cost submissions.
•	   Implementation near the end of the fiscal year of contract oversight proce-
     dures, resulting in previously noted inadequate and ineffective procedures
     during the audit period, including the lack of NSF’s evaluation of contractors’
     accounting systems prior to awarding cost reimbursement type contracts.

It is essential for NSF to improve in these areas in order to ensure the reason-
ableness and accuracy of costs paid on contracts, particularly on contracts
considered to be high-risk.

                                                                                       13
Audits & Reviews


                   The auditors also noted a Defense Contract Audit Agency report dated Sep-
                   tember 30, 2010 that questioned the allowability of $88 million in contingency
                   costs provided for in a proposed budget relating to a construction cooperative
                   agreement proposal with a major NSF awardee. NSF began issuing incremen-
                   tal funding actions on this cooperative agreement proposal in September 2009.
                   The allowability of these contingency costs will be determined during the audit
                   resolution process. The auditors made seven recommendations for NSF to
                   incorporate more comprehensive risk-based policies and procedures for con-
                   tract monitoring and focus cost surveillance on cost reimbursement contracts.
                   NSF agreed with the recommendations and developed a corrective action plan.
                   We agreed with NSF’s proposed corrective actions for the recommendations.

                   The auditors also issued a Management Letter in conjunction with the financial
                   statement audit report. The purpose of this document is to communicate
                   findings that are not included in the audit report but are important to ensuring a
                   sound overall internal control structure and require management’s attention.

                   The FY 2010 Management Letter identified four findings, some of which
                   incorporated elements of prior years’ findings related to NSF’s operations
                   and financial reporting controls. The Management Letter reported continuing
                   improvements were needed to NSF’s policies for awarding and administering
                   grants. The auditors made several recommendations, including that NSF
                   monitor audit resolution activity to ensure that the deadlines are met.

                   NSF generally concurred with the recommendations in the Management Letter
                   and is working to resolve the findings. The FY 2011 financial statement audit
                   will evaluate NSF’s actions in response to the recommendations.



                   NSF Corrects Weakness from 2009 FISMA Review, but
                   Improvements Needed in IT Operating Environment and Disaster
                   Recovery Plans for Antarctic Program

                   The Federal Information Security Management Act (FISMA) requires an annual
                   independent evaluation of an agency’s information security program. Under
                   a contract with the OIG, Clifton Gunderson LLP conducted this independent
                   evaluation for FY 2010. Clifton Gunderson reported that NSF has an
                   established information security program and has been proactive in reviewing
                   security controls and in identifying areas to strengthen its controls; however,
                   some improvements are needed. NSF concurred with the report and has made
                   progress in addressing the findings. The agency provided a corrective action
                   plan, which will be reviewed as part of the FY 2011 evaluation.




             14
                                                              OIG Semiannual Report    March 2011


A-133 Audits
Single Audits Identify Repeat Issues at 14 Percent of Awardees with
Findings

OMB Circular A-133 provides audit requirements for state and local govern-
ments, colleges and universities, and non-profit organizations receiving federal
awards. Under this Circular, covered entities that expend $500,000 or more
a year in federal awards must obtain an annual organization-wide audit that
includes the entity’s financial statements and compliance with federal award
requirements. Non-federal auditors, such as public accounting firms and state
auditors, conduct these single audits. The OIG reviews the resulting audit
reports for findings and questioned costs related to NSF awards, and to ensure
that the reports comply with the requirements of OMB Circular A-133.

The 151 audit reports reviewed and referred to NSF’s Cost Analysis and Audit
Resolution (CAAR) Branch this period covered NSF expenditures of $5 billion
during audit years 2007 through 2010, and resulted in 157 findings at 78 NSF
awardees. One awardee received a disclaimer of opinion on its financial state-
ments and 12 awardees received qualified or disclaimers of opinions on their
compliance with federal grant requirements, including 3 awardees who received
qualified opinions on compliance for programs which included NSF ARRA
expenditures. At 8 awardees, the auditors reported the same findings for 3 or
more consecutive years, including one instance where a finding was reported
for the 8th straight year. At an additional 3 awardees, the auditors reported the
same findings for 2 consecutive years. The failure of these 11 awardees (14
percent of awardees with findings) to implement corrective actions undermines
the integrity of the Single Audit process and could call into question their
ability to manage NSF funds. 14 findings identified by the auditors resulted in
$630,000 in questioned costs to NSF awards, of which $338,000 were caused
by lack of adequate supporting documentation of the amounts charged to NSF
awards. Awardees’ lack of internal controls and noncompliance with federal
requirements included: untimely and/or incorrect reporting of time and effort;
inadequate support for salary/wages, equipment, travel, and indirect costs
charged to awards; inadequate monitoring of subrecipients; inability to prepare
the financial statements; and late submission of financial and/or progress
reports.

We also examined 57 management letters accompanying the A-133 audit
reports and found 7 deficiencies that affected NSF. Auditors issue these
letters to identify internal control deficiencies that are not significant enough to
include in the audit report, but which could become more serious over time if
not addressed. The deficiencies included inadequate tracking, managing, and
accounting for NSF costs, and ineffective segregation of duties. These deficien-
cies affected control processes that are essential to ensuring stewardship of
NSF funds and preventing fraud and abuse.




                                                                                       15
Audits & Reviews


                   Desk Reviews Continue to Reflect Improvements in Single Audit
                   Quality and Timeliness

                   The audit findings in A-133 reports are useful to NSF in planning site visits and
                   other post-award monitoring. Because of the importance of A-133 reports to this
                   oversight process, the OIG reviews all reports for which NSF is the cognizant
                   or oversight agency for audit, and provides guidance to awardees and auditors
                   for the improvement of audit quality in future reports. In addition, OIG returns
                   reports that are deemed inadequate to the awardees to work with the audit firms
                   to take corrective action.


                                                  % of Reports without
                                                  Quality Defiencies
                                          70%
                                          60%
                                          50%
                                          40%
                                          30%
                                          20%
                                          10%
                                           0%


                   We reviewed 72 audit reports1 for which NSF was the cognizant or oversight
                   agency for audit, and found that 47 (65 percent) fully met federal reporting
                   requirements. As shown in the chart, the percentage of reports without quality
                   deficiencies in this period continues to reflect a positive trend in audit quality
                   and timeliness over the past 4 years.

                   However, 25 reports reviewed, including 8 reports with ARRA expenditures,
                   contained quality and timeliness issues. The quality issues we identified includ-
                   ed 12 reports in which the Schedule of Expenditures of Federal Awards did not
                   provide sufficient information to allow for identification of awards received from
                   non-federal “pass-through” entities or did not adequately describe the significant
                   accounting policies used to prepare the schedule. Of the 17 reports which
                   included audit findings, 10 reports failed to adequately present the required
                   elements of the finding to assist auditee management in correcting the reported
                   deficiency, and 7 reports failed to adequately present the required elements of
                   management’s plan to correct the deficiencies reported. In addition, 7 reports




                   1 The audits were conducted by 50 independent public accounting firms.


             16
                                                            OIG Semiannual Report   March 2011


contained errors on the Data Collection Form (Form SF-SAC), which provides a
publicly available summary of the audit results. Finally, 4 reports were submit-
ted after the due date required by OMB Circular A-133.

We contacted the auditors and awardees, as appropriate, for explanations of
each of the potential errors. In most cases, the auditors and awardees either
provided adequate explanations and/or additional information to demonstrate
compliance with federal reporting requirements, or the error did not materially
affect the results of the audit. We issued a letter to each auditor and awardee
informing them of the results of our review and the specific issues on which to
work during future audits to improve the quality and reliability of the report.


Quality Control Review Demonstrates Compliance with
Requirements for ARRA-related Single Audit

We completed a quality control review of the 2009 single audit performed at
Michigan State University by Plante and Moran, PLLC, a public accounting firm.
Michigan State University expended $55 million in direct NSF expenditures
during the year. The audit was selected for review based on issues found during
the desk review related to the reporting of ARRA expenditures. We found
that the auditors properly planned, performed, and documented their work in
accordance with the requirements of Generally Accepted Government Auditing
Standards and OMB Circular A-133.




                                                                                    17
Audits & Reviews




             18
                                                         Investigations
CIVIL AND CRIMINAL INVESTIGATIONS
We investigate violations of federal civil and criminal statutes by ap-
plicants for and recipients of NSF funds, as well as NSF employees
and contractors. When we find substantial evidence of wrongdoing,
we refer cases to the Department of Justice for prosecution and
recommend administrative action by NSF in appropriate circum-
stances.

Our investigations yielded significant results during this reporting
period, including the president of a research company being
debarred for ten years and being required to pay over $105,000 in
restitution after pleading guilty to submitting false claims, and the
indictments of a former school superintendent and two professors
for fraud involving NSF grants.


False Claims and False Statements by Company Officials
Result in Felony Convictions and Ten-Year Debarments

Our investigation involving the president and the executive director
of a Massachusetts research and evaluation company, which had
received a number of NSF grants, resulted in the president plead-
ing guilty to submitting false claims. He was required to pay over
$105,000 in restitution and was sentenced to a month in prison,
nine months home detention, and two years of supervised release.
The executive director pled guilty to submitting false statements,
was required to pay over $5,000 in restitution, and was sentenced
to five years probation. Both executives and the company agreed
to be debarred for ten years.

We had previously investigated the company and found that its
accounting system failed to accurately track grant expenditures.2 At
that time, NSF followed our recommendation to put the company
on a cost-reimbursement plan, requiring the executives to certify
to the accuracy of information about incurred expenses provided
to NSF each month. Thereafter, on a site visit, we discovered
that the executives were instructing their employees to bill time to
NSF projects regardless of how much time they spent on those
projects. Subsequent investigation revealed that the president had         HIGHLIGHTS
also instructed a vendor to bill NSF for non-NSF charges, and then
submitted such false charges to NSF for payment. In response to            Civil and Criminal
our recommendation, NSF terminated the company’s grant, result-             Investigations ................ 19
ing in more than $800,000 being available for other projects.              Research Misconduct
                                                                            Investigations ................23
                                                                           Management Implication
                                                                            Reports ..........................28
2 September 2003 Semiannual Report, p.33.

                                                                          19
Investigations


                 Former NSF Senior Executive Convicted of Submitting Fraudulent
                 Financial Disclosure and Tax Return

                 A former NSF Senior Executive Service employee pled guilty to felony charges
                 for making false statements on his NSF financial disclosure reports and for
                 filing a false federal tax return. While he was a senior executive at NSF, this
                 individual was also secretary general for a non-profit organization that promoted
                 engineering. Although he did not receive a salary from the non-profit, he could
                 be reimbursed for business expenses related to the non-profit.

                 Our joint investigation with the IRS found that this individual paid himself ap-
                 proximately $388,500 from the nonprofit over five years and that he used more
                 than $100,000 of this money for personal purchases such as family vacations
                 and gifts, fitness club memberships, a bidet, monthly parking near NSF, numer-
                 ous restaurant meals and daily gourmet coffee during NSF work hours, home
                 renovations, and a Combined Federal Campaign charitable contribution.

                 Further, he did not disclose the income on his annual financial disclosure
                 reports to NSF, and he affirmatively misrepresented the income on those forms
                 as reimbursements for business expenses. In addition, he knowingly failed to
                 include the nonprofit payments as income on his tax returns over five years. He
                 resigned from NSF during our investigation, and is scheduled to be sentenced
                 in May 2011.


                 Former School Superintendent and Two Former University
                 Professors Indicted for Fraud Related to NSF and Department of
                 Education Grants

                 Three individuals were indicted in California for fraud related to NSF and
                 Department of Education grants to support elementary school science and
                 math education. The first indictment charged a former school superintendent
                 and two former university professors with 16 counts of conspiring to enrich
                 themselves by unlawfully diverting federal grant money to their own use, mail
                 fraud, and theft from programs receiving federal funds.

                 The first indictment alleged that the former superintendent used his position to
                 retain an evaluation company owned by one of the professors, and that he then
                 approved $395,000 in payments to the company from federal grant funds. The
                 company then allegedly paid the superintendent $90,000 and paid $305,000
                 to the two professors. Further, the indictment alleged that the superintendent
                 approved subawards from NSF and Department of Education grants to the
                 professors’ university, and the professors then paid him over $100,000 from
                 these sub-awards. There is no evidence that the superintendent did any work
                 for these payments.

                 The second indictment charged the superintendent with 32 counts of mail
                 and wire fraud for obtaining multiple duplicate travel reimbursements from the
                 school district and federal grants, and with falsifying data regarding students’
                 standardized test results. The superintendent had a subaward from a $5.4
                 million NSF grant to a university to assess an innovative teaching methodology


           20
                                                           OIG Semiannual Report    March 2011


he claimed to have created. He allegedly: falsified his research design and
protocols; fabricated results for a non-existent “control group” of students; and
falsified the data for the students who were taught with his methodology to make
it appear to be more successful.


University Returns $100,598 for Mischarges

Our review of a grant in which the grantee requested a no-cost extension that
NSF denied, disclosed that $100,598 was drawn down nine months after the
expiration of the grant. A no-cost extension allows additional time beyond the
established expiration date for an award for completion of the original work
within the funds already made available.

The university determined that the post-expiration charges constituted salary
for effort by the PI that was unrelated to the NSF project, and the university
returned the funds to NSF. The university is also updating its procedures and
strengthening its internal controls to prevent future such unallowable payments.

This is our third substantiated investigation involving improper expenditures
following denied no-cost extensions. In one, the institution disregarded NSF’s
express denial of a no-cost extension and expended remaining grant funds
improperly, resulting in DOJ pursuing an action under the False Claims Act that
settled for $52,150, implementation of a compliance plan, and debarment of the
PI.3 In the other case, the PI expended funds for costs unrelated to the NSF
grant, resulting in the institution repaying $19,736 to NSF.4


Company Wrongly Spends $100,000 of ARRA Funds

A Connecticut company improperly accepted an NSF Small Business Technol-
ogy Transfer grant while it was under a “Notice of Proposed Debarment” from
another agency. While under this Notice, the company was ineligible to receive
grants from any federal agency. The company then spent $100,000 of the
grant, which was funded under the American Recovery and Reinvestment Act
(ARRA).

NSF agreed with our recommendation to terminate the grant, resulting in
$50,000 funds put to better use. We referred this matter to DOJ to seek to
recover the funds the company had already spent. Because the company did
not take any steps to repay the $100,000, and because of our ongoing concerns
with the company’s present responsibility, we recommended that NSF debar the
company for three years. NSF agreed with our recommendation and issued a
notice of proposed debarment. The company contested the proposed debar-
ment, and NSF’s final decision is pending




3  March 2007 Semiannual Report, pp.29-30.
4  March 2010 Semiannual Report, p.10.


                                                                                    21
Investigations


                 Former PI Suspended Government-wide Pending Resolution of
                 Investigation

                 During the course of an ongoing investigation, we have uncovered evidence
                 that a PI at a university improperly charged significant personal purchases to
                 two NSF grants. He lied to his supervisor to justify the purchases as appropri-
                 ate grant expenses. The university dismissed the PI, and he then formed a
                 company and submitted grant proposals on behalf of that company to NSF and
                 another federal agency. Based on our recommendation, NSF suspended the
                 former PI government-wide in order to prevent him from obtaining and expend-
                 ing federal funds for the duration of this active criminal investigation.


                 NSF Program Official Accused of Undue Influence and Travel Fraud

                 An NSF program officer, who was working in a temporary part-time position
                 under the Intergovernmental Personnel Act (IPA), took advantage of his posi-
                 tion to influence funding of proposals to his laboratory at his home university in
                 California. After an unsuccessful attempt to involve himself in the merit review
                 process for a proposal submitted by his postdoctoral researcher, he facilitated
                 funding of a second proposal by that postdoc. Following this incident, his
                 division implemented special conflict-of-interests procedures for him.
                 It was also alleged that the IPA committed travel fraud. We coordinated our
                 investigation with his university and found that he received duplicative reim-
                 bursements from his university (through a small business he owns), and two
                 other companies for travel paid for by NSF. Further, he had not disclosed his
                 financial interest in these companies to either NSF or his university.

                 Following our recommendation, NSF terminated his IPA grant. The university
                 referred the IPA to its county district attorney for prosecution, and that case is
                 pending.


                 Three Universities Return Funds to NSF for Unallowable Charges

                 In the first case, a visiting scientist was receiving a salary from an NSF grant
                 to a university, while also receiving pay from his home institution. The visiting
                 scientist had increased his work on the grant after the co-PI left the university
                 and received additional salary payments from the grant, while the university
                 was unaware that he was also receiving salary from his home institution. The
                 university determined that its failure to follow its own procedures caused it to
                 overcharge the NSF grant for unallowable salary, fringe benefits, and indirect
                 costs totaling $93,324. The university returned this money to NSF and imple-
                 mented administrative changes to strengthen its internal controls to prevent
                 such future unallowable salary payments.

                 In the second case, a university violated the terms of an NSF grant limiting
                 scholarship payments to $10,000 annually. The university acknowledged
                 scholarship payments in excess of the $10,000 limit, resulting in a $54,250
                 overcharge to NSF. As a result of the investigation, the university returned the
                 funds to NSF and took corrective action to ensure compliance with future NSF
                 grants.

           22
                                                            OIG Semiannual Report   March 2011


In the third case, a Guam university inaccurately charged salary expenses to an
NSF grant. The university returned $36,863 to NSF and took corrective action
to ensure compliance with future NSF grants.


NSF Takes Action on Two High-Risk Individuals

We referred the results of two investigations of high-risk individuals to NSF
for administrative action. In the first, a PI on two NSF grants inappropriately
charged salary and other personal expenses to both university and NSF grants.
As a result, the university fired the PI and replaced him as PI on the NSF
grants. We recommended that NSF debar the former PI for one year; however,
NSF entered into a one-year administrative agreement, requiring him to: (1)
attend an ethics training course; (2) notify NSF’s Office of General Counsel
within five days of submission of any NSF proposals; (3) obtain a supervisor’s
signature on all expenses charged to an NSF grant; and (4) submit a written
report at the end of the year certifying his compliance with the agreement.

In the second case, two senior personnel at a university had been prosecuted
by local authorities for use of $286,000 of university funds for personal
purposes. One of the individuals was convicted and imprisoned. Because the
second individual had received a deferred adjudication (including a substantial
restitution obligation), and had become eligible for federal grants and contracts
by joining the faculty at another university, we questioned her present responsi-
bility for handling federal funds and recommended that NSF debar her for three
years.

NSF entered into a three-year administrative agreement requiring her to: (1)
take an ethics course annually the next two years; (2) make an annual report
to NSF of training taken and proposals (if any) submitted; (3) abide by certain
conditions, including making note of the existence of the administrative agree-
ment in grant applications, obtaining university approval of any expenditure
she makes as a PI, and agreeing that future grants will be administered on a
reimbursable basis rather than through advance payments; and (4) not serve as
an NSF reviewer for three years.


RESEARCH MISCONDUCT INVESTIGATIONS

Research misconduct damages the research enterprise, is a misuse of public
funds, and undermines the trust of citizens in government-funded research. It
is imperative to the integrity of research funded with taxpayer dollars that NSF
funded researchers carry out their projects with the highest ethical standards.
For these reasons, pursuing allegations of research misconduct by NSF-funded
researchers continues to be a focus of our investigative work. In recent years,
we have seen a significant rise in the number of substantive allegations of
research misconduct associated with NSF proposals and grants. The NSF
definition of research misconduct encompasses fabrication, falsification, and
plagiarism.




                                                                                    23
Investigations


                 During this reporting period, we referred nine cases to NSF which are sum-
                 marized below. NSF’s decisions are pending in seven of the nine cases.

                 Graduate Student Intentionally Falsifies Data and Results

                 A graduate student at a Vermont university conducting NSF-funded research
                 intentionally falsified data and results, initially withholding the truth regarding her
                 actions from her advisor, the PI. The student, who received NSF support as a
                 graduate research assistant for three summers, admitted her misconduct only
                 when confronted by the PI, who could not recreate her data. She had falsified
                 data and research materials after she inadvertently destroyed her test material.

                 The university investigation concluded that the student intentionally falsified
                 data, and dismissed her from the university. We recommended that NSF:
                 make a finding of research misconduct against the student; send her a letter of
                 reprimand; debar her for three years; and require certifications and assurances
                 for three years following the debarment period. NSF’s decision is pending.


                 Lab Technician Fabricates Data in Biomedical Study

                 A laboratory technician at an Illinois university fabricated data for a series of
                 assay measurements. The technician purposefully altered the data he provided
                 to his colleagues to support the desired conclusion. These data appeared in a
                 publication as well as a proposal submitted to NSF. Based on the university’s
                 finding of research misconduct, as well as our additional investigation, we
                 confirmed that the technician intentionally committed research misconduct.

                 We recommended that NSF: make a finding of research misconduct; send a
                 letter of reprimand; debar the individual for three years; require certifications
                 and assurances for three years after debarment ends; prohibit service as a
                 reviewer of NSF proposals for six years; and require completion of a course
                 in research ethics within one year of the finding of research misconduct. NSF
                 agreed with our recommendations and proposed debarment of the individual.
                 NSF’s final actions are pending.


                 Seven Plagiarism Cases Are Referred to NSF for Adjudication

                 Plagiarism, defined as “the appropriation of another person’s ideas, processes,
                 results or words without giving appropriate credit,”5 is a direct assault upon
                 NSF’s expectation that proposals submitted to the agency will uphold scholarly
                 standards. Plagiarism in a proposal serves to misrepresent the PI’s body of
                 knowledge and research experience, and therefore inaccurately portrays the
                 proposal’s respective merit to the reviewers and program officers. As such,
                 it provides a flawed basis upon which to make a funding decision. Plagiarism
                 debases the research community’s faith in the validity of the research proposed
                 and ultimately erodes the integrity of the research community.



                 5 45 C.F.R. § 689.1(a)(3).


           24
                                                                               OIG Semiannual Report         March 2011


In each of the seven plagiarism cases discussed below, we recommended that
NSF make a finding of research misconduct, issue a letter of reprimand, and
require completion of a course on research ethics.6 We also made additional
recommendations as described below—except as noted, NSF’s decision is
pending in each case.


 PIs Blame Students for Their Plagiarism

 Our research misconduct investigations find that faculty members faced with
 a plagiarism allegation frequently blame their students. For example, in one
 case, a PI claimed that he had over 80 undergraduate students involved in
 drafting the proposal making it difficult to determine who was responsible
 for the plagiarism. In another case, a PI claimed that he had incorporated
 well-written text he received from his graduate student—the university inves-
 tigation committee observed that the student had “weak English skills,” and
 concluded that, even if the PI’s story was true, he was still responsible for the
 plagiarism because it was “inexplicable that [the PI] did not review and/or edit
 what the student wrote.” In another case, a senior professor falsely accused
 an undergraduate student of copying text, from a proposal the scientist had
 received for confidential peer review, into the professor’s NSF proposal.
 Our investigation determined that, at the time the proposal was written, the
 student did not work with the professor, was not registered with the university,
 and had in fact returned to his native country.

 All too often students become a convenient scapegoat for faculty members.
 We remind PIs and co-PIs that the individuals listed as investigators on
 the proposals and coauthors on the articles are ultimately responsible for
 the content, and they should thoroughly review any materials provided by
 students.


•	   A faculty member at an Indiana university copied text into two NSF propos-
     als, using sources that included prior proposals from her faculty colleagues.
     The university concluded that the faculty member committed research
     misconduct, required training in the responsible conduct of research (RCR),
     and instituted a three-year period in which the faculty member’s external
     proposals must be reviewed before submission. We agreed with the
     university’s conclusions and recommended that NSF require three years of
     certifications and assurances, and prohibit service as an NSF reviewer.

•	   A university administrator knowingly copied several pages of text from an
     NSF-awarded proposal into his proposal for a nearly identical project. The
     administrator admitted to the copying and asserted that he had obtained the
     source document at a grant writing workshop. His co-PIs were unaware
     of the copying when they edited the text, resulting in only minor changes
     from the original text. The university found that the administrator commit-
     ted plagiarism, concluded that it was just “poor judgment,” restricted his
     ability to apply for a promotion, removed him from his current position as a


6  If the university required completion of such a course, we recommended that NSF require submission of a
certification that the course was in fact completed.


                                                                                                             25
Investigations


                      departmental administrator, and required his proposals to be reviewed by
                      an internal committee for three years. We concluded that the administrator
                      knowingly committed plagiarism, but his actions appeared to be an isolated
                      incident, against which we balanced the significance of the administrator’s
                      position within the university and on active NSF grants. We recommended
                      NSF debar him for one year, require certifications and assurances for
                      three years following the debarment, and ban him from serving NSF as a
                      reviewer, advisor, or consultant.

                 •	   A PI at an Alabama university plagiarized substantive amounts of text
                      from six source documents into three NSF proposals. Concerning the
                      proposal containing the largest amount of copied text, the PI contended that
                      reference information was lost during the editing process. The university
                      concluded that the PI recklessly committed plagiarism, a significant
                      departure from accepted practices in the research community. Following
                      the university’s investigation, we noted that, contrary to the PI’s claims, the
                      draft proposal did not contain reference information. We concurred with the
                      university’s assessment and recommended that NSF require certifications
                      and assurances for two years.

                 •	   A professor at a Mississippi university plagiarized text into three unfunded
                      proposals submitted to NSF. During the university investigation, the PI
                      claimed she was ignorant of the definition of research misconduct in the
                      NSF regulation; however, the university concluded that she committed
                      research misconduct, stating that “ignorance is no defense against a charge
                      of plagiarism,” and recommended that her employment be terminated.
                      We agreed with the university’s conclusions and recommended that NSF
                      require certifications and assurances for two years.

                 •	   A professor from an Alabama university plagiarized text, a figure, and refer-
                      ences into two proposals he submitted to NSF. He asserted that the copied
                      material in one of the proposals was a former student’s Ph.D. thesis and
                      claimed the student had provided the material to the professor’s research
                      group. The former student denied the professor’s claim.

                      The university concluded that the professor recklessly committed plagia-
                      rism, sent him a letter of reprimand, and required him to write letters apolo-
                      gizing to his former student and NSF program officers, attend an ethics
                      training course and complete RCR certifications, design a research integrity
                      and plagiarism workshop for university faculty and researchers, and resign
                      from activity with university affiliated research for two years, among other
                      things. We concurred with the university’s findings and recommended that
                      NSF require certifications and assurances for a year, and bar the professor
                      from serving NSF as a reviewer for one year.

                 •	   An assistant professor at a Florida university plagiarized text, figures, and
                      references into two proposals he submitted to NSF. During the inquiry,
                      he said that because the proposals were “highly interdisciplinary,” he had
                      undergraduate and graduate students, and postdoctoral researchers,
                      conduct the background literature search and summarize the results into a
                      draft, which he included in the introductions to both proposals.


           26
                                                             OIG Semiannual Report    March 2011


     The university concluded that the PI committed plagiarism and took the
     following actions: sent the PI a letter of reprimand; required him to complete
     ethics training immediately and every three years while affiliated with
     the university; required him to ensure that his research team completes
     regular RCR training; informed him that future misconduct could result in
     termination or other sanctions; and committed to ensuring that all of the his
     proposals be reviewed, for at least three years, by his director and depart-
     ment chair prior to submission. We accepted the university’s conclusions
     and recommended that NSF require certifications and assurances for one
     year. NSF concurred with our recommendations.

•	   A PI who was an assistant professor at a Texas university plagiarized
     text, a figure, and references into one proposal he submitted to NSF. The
     university’s investigation concluded that the PI committed plagiarism, and
     the university required the PI to: complete a continuing education course
     in professional ethics before submitting future proposals or papers; sign
     affidavits for two years affirming that his proposal and peer-reviewed publi-
     cation submissions contain no plagiarism; use plagiarism detection software
     to analyze two publications on which he was sole author and submit his
     analysis to them; and certify to administrators that there has been no know-
     ing or intentional plagiarism in his publications. We adopted the report and
     its findings, and NSF concurred with our recommendations.


Actions by NSF Management on Previously Reported Research Mis-
conduct Investigations

NSF has taken administrative action to address our recommendations on five
research misconduct cases reported in our September 2010 report. In each
case, NSF made a finding of research misconduct, issued a letter of reprimand,
and required completion of a course in ethics training. NSF also took additional
significant actions in response to our recommendations as summarized below.

•	   NSF debarred a graduate student for three years as a result of her data
     fabrication, required certifications and assurances for three years after
     debarment ends, and prohibited service as a reviewer of NSF proposals for
     six years.7
•	   NSF debarred a California university professor for one year for his plagia-
     rism and violation of the confidentiality of peer review. NSF also required
     certifications and assurances for three years after debarment ends, and
     prohibited service as a reviewer of NSF proposals for three years.8

•	   NSF required a Mississippi university professor who plagiarized to provide
     certifications and assurances for one year.9

•	   NSF required a Virginia university professor who plagiarized to provide
     certifications and assurances for three years.10


7 September 2010 Semiannual Report, p.11.
8 September 2010 Semiannual Report, pp.11-12.
9 September 2010 Semiannual Report, p.13.
10 September 2010 Semiannual Report, p.12.


                                                                                      27
Investigations


                 •	   NSF required a North Carolina university professor who plagiarized to
                      provide certifications and assurances for three years and prohibited the
                      professor from serving as a reviewer for three years.11

                 •	   NSF required a California university professor who plagiarized to provide
                      certifications and assurances for two years and prohibited the professor
                      from servicing as a reviewer for three years.12


                 MANAGEMENT IMPLICATION REPORTS
                 Review of NSF Refreshment Purchases for Meetings

                 Our review of charges on NSF purchase cards for refreshments for merit review
                 panelists and others attending meetings at NSF identified nearly $500,000 in
                 food-related payments in both 2008 and 2009.13 NSF pays for these refresh-
                 ments out of program funds, in addition to the flat-rate or per diem compensa-
                 tion it provides to attendees to cover all of their expenses including meals. The
                 flat rate compensation is $480 for each meeting day and $280 for each travel
                 day to cover an honorarium, hotel, local travel, and all meals. The per diem
                 rate includes $71 for meals and incidentals, in addition to lodging and travel
                 expenses.

                 We examined expenditures associated with the substantial flow of food and
                 beverages daily into NSF from a wide variety of vendors to determine the
                 potential for fraud, waste, and abuse. Approximately a quarter of the 110
                 purchases that we reviewed exhibited at least one typical fraud indicator, includ-
                 ing late pre-approvals, inconsistent pre-approvals and invoices, late payment
                 of invoices, hand-written changes to otherwise printed invoices, white-out on
                 invoices, or late changes to already placed orders. In addition, we identified an
                 NSF staff member who caused her father’s company to receive the refreshment
                 orders for three review panel meetings, violating NSF conflict of interests rules.

                 Pursuant to guidance from the General Services Administration (GSA), prices
                 paid by agencies for refreshments must be fair and reasonable, and purchases
                 must be equitably distributed among suppliers. We found that there is no
                 Foundation-level oversight or coordination of refreshment purchases, no
                 general definition of “reasonable” refreshment purchases, no uniform guid-
                 ance to ensure consistent refreshment-purchase decision making within and
                 across NSF divisions, and no purchase card training specific to refreshment
                 purchases. As a result, refreshment purchase practices vary widely across
                 the Foundation. While the majority of NSF organizations purchase food for
                 panels and other activities from vendors in the area near NSF in Arlington, for
                 example, nearly a quarter of such purchases were made from more distant
                 vendors, which sometimes added additional delivery charges. Other situations
                 our analysis revealed included: wide ranges in per-person prices paid for
                 similar products; instances in which purchases were made of substantial food

                 11 September 2010 Semiannual Report, p.12.
                 12 September 2010 Semiannual Report, pp.12-13.
                 13 The Federal Travel Regulation states that federal agencies may provide light refreshments to agency
                 employees attending an official conference. NSF’s Office of General Counsel advises that meetings of review
                 panels, advisory committees and Committees of Visitors fall within the definition of a conference.

           28
                                                             OIG Semiannual Report    March 2011


that could be viewed as a meal and not light refreshments; cases where offices
purchased virtually all refreshments from a single vendor; and some purchases
that appeared to directly contravene GSA and NSF guidance.

Although we ultimately did not find fraud in the transactions we examined, the
large number of indicators and divergent or inconsistent practices we identified
strongly suggests that NSF would benefit from a more centralized purchasing
process. We recommended that NSF assess whether it is a prudent use of
federal funds to spend nearly a half-million dollars a year to provide extensive
mid-morning and mid-afternoon refreshments for meeting attendees, in addition
to the compensation they are receiving. If NSF chooses to continue providing
food, we recommended that the agency centralize its provision of refreshments
to improve control over the process and ensure it is carried out reasonably,
consistently, and responsibly.

In response, NSF explained that it believes it is crucial that panels operate in an
environment that maximizes thoughtful and efficient deliberation, and that light
refreshment helps maintain such an environment. Accordingly, NSF decided to
implement our second recommendation by taking the following specific steps:

•	   Set a reasonable cost ceiling per panelist per day;

•	   Reissue guidance (including keeping records, ensuring price reasonable-
     ness, and rotating vendors when practical, consistent with FAR require-
     ments) to those responsible for ordering light refreshment to ensure menus
     are appropriate and light refreshment is not used to replace meals—and
     actively monitor compliance with the guidance;

•	   Explore the costs and benefits associated with further centralization of
     purchasing light refreshments, and establish fully centralized purchases if
     determined to be advantageous; and

•	   Generally continue to review agency supply and service requirements to
     determine strategies for cost savings through consolidations.

We will monitor NSF’s execution of these practices.


Implementation of New Strategies and Practices for NSF OIG
Hotline

The Department of Homeland Security OIG issued a report, adopted by the
Council of the Inspectors General on Integrity and Efficiency, on recommended
practices for OIG Hotlines.14 We implemented several of the report’s recom-
mendations. For example, we developed questions to help ensure that we
obtain pertinent information from complainants to initiate a thorough investiga-
tion. We also implemented an email auto-reply for allegations received via our
Hotline e-mail account15 as well as the Hotline Intake Form on our website,16 to
inform complainants that our office has received their allegations.

14  www.ignet.gov/randp/ighotline1010.pdf.
15  oig@nsf.gov.
16 www.nsf.gov/oig/hotline_form.jsp.

                                                                                      29
Investigations


                 Follow-Up from Previous MIRs
                 NSF Forms Task Group to Address Travel Expenditures by
                 Temporary Program Staff

                 Our review of Independent Research/Development (IR/D) travel by temporary
                 NSF program staff17 determined that the participants used IR/D funds for trips
                 and conferences not referenced in the plans, took many more trips or longer
                 trips than proposed, failed to provide detail on conference travel, used NSF
                 funds for activities unrelated to the IR/D plan, and spent more on travel than
                 proposed. In response to our review, NSF formed a task group to address the
                 IR/D program and sent an agency-wide bulletin reminding staff to adhere to the
                 current IR/D policies and procedures. We will monitor NSF’s execution of these
                 practices.


                 NSF Takes Steps to Address Recommendations in Response to
                 Review of Oversight Plans for Projects Involving International
                 Subawardees

                 We reviewed Oversight Plans for institutions collaborating with international
                 subawardees in an NSF program.18 The Oversight Plans required the lead
                 institution to ensure subawardee compliance with a variety of requirements
                 including: financial accountability, biological oversight, Bioterrorism Act, and
                 RCR. Our review of the program’s proposals and recommended grants
                 determined that the Plans generally did not substantively address all of the
                 requirements and did not reflect collaboration between the lead institution and
                 subawardee in creating the Plans. We recommended that NSF require the
                 collaborative development of Oversight Plans, increase awareness concerning
                 RCR training and research misconduct reporting, and develop more detailed
                 guidance for Oversight Plans in future international cooperative grants.

                 NSF agreed with our recommendations and stated that it will: modify language
                 in the solicitation to ensure collaborative Oversight Plans as the program
                 matures; include language in the 2012 program solicitation providing additional
                 guidance to applicants; require a signed agreement in post-panel negotiations;
                 provide webcast workshops on institutional responsibilities; and, encourage
                 grantees to develop Oversight Plans with subawardees and explain how they
                 will address RCR training and research misconduct enforcement in annual
                 reports. We will monitor NSF’s execution of these practices.




                 17 September 2010 Semiannual Report, pp.14-15.
                 18 September 2010 Semiannual Report, p.14.


           30
                                OIG Management Activities
Congressional Testimony

In February 2011, the Inspector General testified before the House
Appropriations Commerce, Justice, Science and Related Agencies
Subcommittee on oversight of NSF. The Inspector General’s
testimony focused on two of the six top management challenges
facing NSF—improving grant administration and strengthening
contract administration as well as the emerging challenge of control
of contingencies in budgets for large construction projects. The
testimony also discussed how NSF spends money internally for its
own operations and activities.

With regard to the first challenge of improving grant administration,
in 2010 NSF funded more than 55,000 active awards at over 2,100
institutions. Since most of those awards were made as grants,
it is essential that NSF’s grants management process be robust
enough to ensure the highest level of accountability and steward-
ship. Our audit work has found that NSF needs to improve its
oversight of awardees, and NSF has taken steps to address this
concern including establishing an Award Monitoring and Business
Assistance Program (AMBAP) to provide oversight. However, in
2010, only about 7 percent of institutions receiving NSF funding
received an AMBAP desk review or site visit. Given the breadth
of our mission, we can only review a small number of awards each
year. To better target our oversight, our office is developing a data
analytic capacity and improved forensic financial skills to better
identify high risk awards; expanding outreach to help ensure that
awardees understand the rules that apply to them; and focusing
efforts on proactive reviews to help identify grant fraud that might
otherwise be undetected.

With regard to the second challenge of strengthening contract
administration, we have placed particular emphasis on NSF’s
management of cost-reimbursement contracts because of the
risk associated with this type of contract; the substantial amount
of money NSF expends annually on contracts of this type; and
the significant deficiency in the monitoring of cost reimbursement
contracts cited in the Foundation’s FY 2009 and FY 2010 financial
statement audits. Cost reimbursement contracts are considered
high risk because of the potential for cost escalation and because
the contractor’s costs for performance are paid regardless of
whether work is completed. Compounding this risk, of the amounts         HIGHLIGHTS
NSF obligated for cost reimbursement contracts in 2010, over 70
percent (or $204 million) was on contracts that permit advance           Congressional Testimony.31
payments to three of NSF’s largest contractors.                          Outreach...........................32



                                                                        31
Management Activities


                        Recent audits of cooperative agreement proposals for large construction
                        projects found that awardees’ budgets contained more than $150 million of
                        unallowable contingency costs and that no barriers existed to prevent awardees
                        from drawing down contingency funds in advance and using these funds for
                        purposes other than contingencies.

                        With regard to how NSF spends money internally for its operations and activi-
                        ties, we recently examined expenditures in two areas, refreshments provided to
                        individuals participating in meetings at NSF and travel expenses under NSF’s
                        Independent Research and Development program—both of which might yield
                        cost savings with additional oversight and control.

                        For NSF to achieve its mission, it must spend its research funds in the most
                        effective and efficient manner while maintaining the highest level of accountabil-
                        ity over taxpayer dollars. The OIG will continue to utilize the full range of audit
                        and investigative resources to exercise robust oversight of NSF’s stewardship of
                        federal funds and to safeguard the integrity of the Foundation’s operations.


                        Outreach

                        Outreach is a vital tool we use in accomplishing our mission to prevent and
                        detect fraud, waste, and abuse and to promote economy, efficiency, and effec-
                        tiveness in NSF programs and operations. To this end, we undertake a number
                        of proactive activities, such as education of NSF awardees about their financial
                        and programmatic responsibilities.

                        In August 2009 the NSF Inspector General testified before the Senate
                        Committee on Commerce, Science and Transportation on the subject of waste,
                        fraud, and abuse in the SBIR/STTR Programs.19 Since that time, the Inspec-
                        tor General has continued to address concerns expressed by members of
                        Congress regarding prevention and detection of fraud in those programs. The
                        Inspector General and the then Acting IG at NASA created an SBIR working
                        group under the auspices of the Council of Inspectors General on Integrity
                        and Efficiency (CIGIE) Misconduct in Research Working Group. Based on
                        the Working Group’s recommendations, the Small Business Administration
                        is making improvements to the government database of SBIR/STTR awards,
                        TECH-Net, to better assist in the identification and analysis of companies under
                        examination or investigation. The Working Group is also providing feedback to
                        Congress on portions of the legislation to renew the SBIR and STTR programs
                        that affect the IG community as well as providng insights on how to combat
                        fraud within the programs. The Working Group is planning a government-wide
                        SBIR-focused “summit” in June 2011 for agency officials and IG personnel,
                        which will include discussions about various initiatives to ensure integrity,
                        improve oversight, and enhance fraud prevention within the SBIR program.
                        Another significant component of this effort is an agent-level group of special
                        agents from thirteen federal agencies, led by NSF and Department of Energy
                        OIG, which actively shares information on ongoing cases, lessons learned, and
                        best practices related to SBIR investigations.

                        19  September 2010 Semiannual Report, pp.27-28.


                 32
                                                            OIG Semiannual Report   March 2011


In addition, the NSF IG is leading a Suspension and Debarment (S&D) Working
Group with the Federal Housing Finance Agency IG, under the auspices of the
CIGIE Investigations Committee. This group, which consists of representatives
from the Recovery Accountability and Transparency Board (RATB) and eight
other OIGs, is focused on increasing knowledge and use of S&D to protect gov-
ernment funds against fraud. In the past six months, the group conducted two
surveys, one of the IG community and one of agency S&D officials. The results
of these surveys will be used to begin a dialogue with the OIG community and
among the RATB, OIGs, and S&D officials at agencies receiving Recovery
Act funds about ways to enhance use of S&D in Recovery Act awards and
other awards involving significant wrongdoing. The results will also inform the
Working Group’s efforts to increase and enhance the use of S&D across the
government through education and outreach. Finally, in October, the Working
Group sponsored a workshop attended by approximately 350 investigators,
auditors, Inspectors General, and S&D officials, from over 25 agencies, which
included presentations on significant cases and best practices. Presentations
are available at: www.nsf.gov/oig/SD2010.jsp.

In other outreach events, the Inspector General addressed several groups,
including the National Academy of Science Federal Demonstration Project
Conference, highlighting recent audits and investigations and providing
recommendations about how NSF recipients can best protect the funds they
receive. The Inspector General also spoke with students at the Government
Affairs Institute at Georgetown University on the functions of an OIG, focusing
particularly on an IG’s interactions with agency management and Congress.

Our extensive experience in investigating research misconduct matters is well-
recognized in the community, and we continue to receive numerous requests
from universities and others in the research community to provide training on
the prevention, detection, and investigation of research misconduct. We also
continue to focus on promoting the value of institutionalized compliance-based
practices and programs throughout the research community. For example, we
continue to address NSF’s Responsible Conduct of Research (RCR) require-
ments to institutions as these requirements are key components to improving
the development of individual and institutional integrity in research and to more
fully developing integrity in future generations of scientists.

Our outreach in these areas during the past six months included the Assistant
Inspector General for Investigations’ keynote address at a workshop, “Research
Integrity in a Changing World” conducted by the American Association for the
Advancement of Science and her keynote address at the Association for Practi-
cal and Professional Ethics. Our office utilizes these events to educate entities
about the importance of the RCR requirements and to encourage them to meet
these requirements.

We continue to be involved in extensive outreach activities covering a range
of issues such as grant fraud, research integrity and misconduct, compliance
programs, and projects related to the Recovery Accountability and Transpar-
ency Board. Presentations on these issues were provided at the National
Procurement and Grant Fraud Conference, the Federal Audit Executive Coun-
cil, the National Council of University Research Administrators, the Society of


                                                                                    33
Management Activities


                        Research Administrators International, the American Association of Community
                        Colleges, and the Council of Graduate Schools. Staff also participated in
                        interagency efforts that included exchanges on data mining techniques and the
                        Interagency Fraud and Risk Data Mining Group.


                         Investigation Closeout Memoranda Now Available Online

                         Our investigation closeout memoranda are now publicly available on our
                         website at: nsf.gov/oig/closeouts.jsp. These memos describe the nature of
                         the investigation and whether it resulted in administrative, civil, or criminal
                         action. The memos are organized into searchable categories such as grant
                         fraud, contractor fraud, computer intrusion, and PI misconduct.




                 34
                                                     Statistical Data
                           Audit Data
      Audit Reports Issued with Recommendations
                for Better Use of Funds


                                                     Dollar Value
A.    For which no management decision has been         $88,184,480
      made by the commencement of the reporting
      period
B.    Recommendations that were issued during the       $62,338,903
      reporting period
C.    Adjustments related to prior recommendations                  $0
Subtotal of A+B+C                                      $150,523,383
D.    For which a management decision was made                      $0
      during the reporting period
      i)    Dollar value of management decisions                    $0
            that were consistent with OIG
            recommendations
      ii)   Dollar value of recommendations that                    $0
            were not agreed to by management
E.    For which no management decision had been        $150,523,383
      made by the end of the reporting period
For which no management decision was made within        $88,184,480
6 months of issuance




                                                                         35
Statistical Data


                             Audit Reports Issued with Questioned Costs

                                                                    Number of             Questioned           Unsupported
                                                                     Reports                Costs                 Costs
 A.    For which no management decision has                              43              $42,777,448*           $4,058,391
       been made by the commencement of the
       reporting period
 B.    That were issued during the reporting period                      17               $5,017,806            $3,011,092
 C.    Adjustment related to prior recommendations                        1              $(560,376)**                 $0
 Subtotal of A+B+C                                                                       $47,234,878            $7,069,483
 D.    For which a management decision was made                          20               $1,445,432            $1,072,771
       during the reporting period
       i)	 dollar value of disallowed costs                             N/A                $718,572                  N/A
       ii)	 dollar value of costs not disallowed                        N/A                $726,860                  N/A
 E.    For which no management decision had                              39              $45,789,446            $5,996,712
       been made by the end of the reporting period
 For which no management decision was made                               24              $40,849,403            $3,063,378
 within 6 months of issuance




* We are reducing the questioned costs in A above because questioned costs were previously partially resolved in two reports.
Specifically, in prior periods: 1) $12,490,377 of the $33,425,115 questioned costs were resolved on OIG Report No. 05-1-005, and
all $12,490,377of those costs were not disallowed; and 2) $8,941,231 of the $22,112,521 of questioned costs on OIG Report No.
06-1-023 were resolved, and of those costs, $8,802,474 were not disallowed and $138,757 were disallowed.
** As of September 8, 2010, $560,376, the total amount of questioned costs on OIG Report No. 07-1-015, were resolved and all
those costs were disallowed.




             36
                                                                            OIG Semiannual Report         March 2011


                               Status of Recommendations that Involve
                                Internal NSF Management Operations

 Open Recommendations (as of 03/31/2011)
    Recommendations Open at the Beginning of the Reporting Period                                         42
    New Recommendations Made During Reporting Period                                                      23
    Total Recommendations to be Addressed                                                                 65
 Management Resolution of Recommendations               1


    Awaiting Resolution                                                                                   17
    Resolved Consistent With OIG Recommendations                                                          48
 Management Decision That No Action is Required                                                            0
 Final Action on OIG Recommendations           2


    Final Action Completed                                                                                15
 Recommendations Open at End of Period                                                                    50




                                    Aging of Open Recommendations

 Awaiting Management Resolution:
       0 through 6 months                                                                                 16
       7 through 12 months                                                                                 0
       More than 12 months                                                                                 1
 Awaiting Final Action After Resolution
       0 through 6 months                                                                                  7
       7 through 12 months                                                                                 2
       More than 12 months                                                                                24




1 “Management Resolution” occurs when the OIG and NSF management agree on the corrective action plan
that will be implemented in rsponse to the audit recommendation.
2 “Final Action” occurs when management has completed all actions it agreed to in the correction action
plan.


                                                                                                          37
Statistical Data


                                              List of Reports

                                   NSF and CPA-Performed Reviews

   Report                           Subject                    Questioned      Unsupported    Better Use
   Number                                                        Costs            Costs        of Funds
  11-1-001         REVISED ATST Price Proposal                           $0             $0 $62,388,903
  11-1-002         William Marsh Rice University                         $0             $0            $0
  11-1-003         ARRA Data- University of Alaska                       $0             $0            $0
                   Anchorage
  11-1-004         ARRA New Jersey Institute of Technology               $0             $0            $0
  11-1-005         ARRA West Virginia University Research                $0             $0            $0
                   Corporation
  11-1-006         ARRA IGES Institute of Global                         $0             $0            $0
                   Environment & Society, Inc.
  11-1-007         ARRA American Museum of Natural                    $3,072            $0            $0
                   History
  11-1-008         ARRA California Academy of Sciences                   $0             $0            $0
  11-1-009         Ohio State University Research Foundation    $1,736,068        $490,129            $0
  11-1-010         AURA Accounting System                                $0             $0            $0
  11-1-011         NCCU Internal Control Review for North        $351,340         $268,628            $0
                   Carolina Central University
  11-1-012         Trustees of Boston University                    $412,400       $47,486            $0
  11-1-013         Louisiana Board of Regents                   $1,884,950       $1,867,254           $0
  11-1-014         IRIS Incurred Cost                                    $0             $0            $0
  11-1-015         ARRA University of Washington                         $0             $0            $0
  11-1-016         AUI Internal Control                                  $0             $0            $0
  11-2-001         NSF’s FY2010 Financial Statement Audit                $0             $0            $0
  11-2-002         NSF FY2010 Special Purpose Financial                  $0             $0            $0
                   Statement
  11-2-003         FISMA 2010 Independent Evaluation                     $0             $0            $0
                   Report
  11-2-004         FY2010 FISMA Independent Evaluation                   $0             $0            $0
                   Report
  11-2-005         NSF’s FY2010 Management Letter                        $0             $0            $0
  11-2-006         Workforce Management (Congressional                   $0             $0            $0
                   Request)
  11-2-007         AUP IODP International Ocean Drilling                 $0             $0            $0
                   Program
  11-6-004         ARRA Capability California State                      $0             $0            $0
                   University – Fresno
                   Total:                                       $4,387,830       $2,673,497 $62,338,903

The office issued 24 audit reports during this semiannual period.




             38
                                                               OIG Semiannual Report   March 2011


                                  NSF-Cognizant Reports

 Report                              Subject                              Questioned   Unsupported
 Number                                                                     Costs         Costs
11-4-001   6-09 Island Institute - ME                                             $0            $0
11-4-002   12-09 Association of Public and Land-Grant Universities - DC           $0            $0
11-4-003   12-09 American Association of Physics Teachers - MD                    $0            $0
11-4-004   12-09 Astrophysical Research Consortium - WA                           $0            $0
11-4-005   12-09 Institute for Broadening Participation - ME                      $0            $0
11-4-006   12-09 AIM American Institute of Mathematics - CA                       $0            $0
11-4-007   12-09 Rocky Mountain Biological Laboratory - CO                        $0            $0
11-4-008   12-09 UNAVCO, Inc. - CO                                                $0            $0
11-4-009   12-09 American Society of Human Genetics - MD                          $0            $0
11-4-010   3-10 Association of Science-Technology Centers Inc. - DC               $0            $0
11-4-011   Santa Fe Institute - NM                                                $0            $0
11-4-012   6-10 VMI Research Laboratories - VA                                    $0            $0
11-4-013   12-09 Woods Hole Oceanographic Institution - MA                   $77,758        $77,758
11-4-014   12-09 Space Science Institute - CO                                     $0            $0
11-4-015   12-09 CUAHSI Consortium of Universities for the                        $0            $0
           Advancement of Hydrologic Sciences - DC
11-4016    12-09 American Mathematical Society - RI                               $0            $0
11-4-017   12-09 Stroud Water Research Center, Inc. - PA                          $0            $0
11-4-018   12-09 American Association of Community Colleges - DC                  $0            $0
11-4-019   12-09 Triangle Coalition for Science and Technology                    $0            $0
           Education - VA
11-4-020   12-09 SCOR Scientific Committee on Oceanic                             $0            $0
           Research - DE
11-4-021   12-09 St. Louis Science Center - MO                                    $0            $0
11-4-022   12-09 USMFS George E. Brown US-Mexico Foundation                       $0            $0
           for Science
11-4-023   12-09 Barrow Arctic Science Consortium - AK                            $0            $0
11-4-024   12-09 Center for Severe Weather Research - CO                          $0            $0
11-4-025   12-09 Consortium of Universities for Research in                       $0            $0
           Earthquake Engineering - CA
11-4-026   12-09 Donald Danforth Plant Science Center - MO                        $0            $0
11-4-027   12-09 EdLab Group FKA Puget Sound Center                               $0            $0
           Foundation - WA
11-4-028   12-09 OPeNDAP Open Source Project for Network Data                     $0            $0
           Access Protocol - RI
11-4-029   5-10 Oregon Museum of Science & Industry                               $0            $0
11-4-030   12-08 Inland Northwest Community Access Network - WA                   $0            $0
11-4-031   12-09 Inland Northwest Community Access Network - WA                   $0            $0




                                                                                       39
Statistical Data



  11-4-032         12-09 The Shodor Education foundation, Inc. NC          $0   $0
  11-4-033         2-09 REVISED Astronomical Society of the Pacific - CA   $0   $0
  11-4-034         6-10 GSU Research & Service Foundation, Inc.            $0   $0
  11-4-035         6-10 Woods Hole Research Center - MA                    $0   $0
  11-4-036         12-09 American Educational Research Association - DC    $0   $0
  11-4-037         6-10 Illinois State Museum Society - IL                 $0   $0
  11-4-038         8-09 Merck Institute for Science Education - NJ         $0   $0
  11-4-039         12-09 Mathematical Association of America - DC          $0   $0
  11-4-040         2-10 Astronomical Society of the Pacific - CA           $0   $0
  11-4-041         6-10 Cary Institute of Ecosystem Studies, Inc. - NY     $0   $0
  11-4-042         6-10 Exploratorium - CA                                 $0   $0
  11-4-043         6-10 Public Radio International Inc. - MN               $0   $0
  11-4-044         6-10 Oakland Museum of California Foundation            $0   $0
  11-4-045         6-10 Viewpoints Research Institute, Inc. - CA           $0   $0
  11-4-046         6-10 Yellowstone Park Foundation, Inc. - MT             $0   $0
  11-4-047         9-10 ARCUS Arctic Research Consortium of the US - AK    $0   $0
  11-4-048         6-10 BLOS Bigelow Laboratory for Ocean Sciences - ME    $0   $0
  11-4-049         6-10 Science Museum of Minnesota                        $0   $0
  11-4-050         6-10 William Marsh Rice University - TX                 $0   $0
  11-4-051         3-10 Berkeley Geochronology Center - CA                 $0   $0
  11-4-052         6-10 Allegheny Intermediate Unit 3 -PA                  $0   $0
  11-4-053         6-10 Pacific Science Center Foundation - CA             $0   $0
  11-4-054         6-10 Southern Oregon Public Television                  $0   $0
  11-4-055         6-10 California Academy of Sciences                     $0   $0
  11-4-056         6-10 University Enterprises, Inc. - CA                  $0   $0
  11-4-057         6-10 Santa Barbara Community College District - CA      $0   $0
  11-4-059         6-10 Shepherd University Research Corporation - WV      $0   $0
  11-4-060         6-10 National Alliance for Partnerships in Equity       $0   $0
                   Education Foundation, Inc. - PA
  11-4-061         6-10 Maine Mathematics and Science Alliance             $0   $0
  11-4-062         6-10 IRIS Incorporated Research Institutions for        $0   $0
                   Seismology - DC
  11-4-063         8-10 WGBH Educational Foundation - MA                   $0   $0
  11-4-064         6-10 Carnegie Institution of Washington - DC            $0   $0
  11-4-065         8-10 Twin Cities Public Television, Inc. - MN           $0   $0
  11-4-066         9-10 UCAR University Corporation for Atmospheric        $0   $0
                   Research - CO
  11-4-067         9-10 AUI Associated Universities, Inc. - DC             $0   $0




             40
                                                            OIG Semiannual Report   March 2011



11-4-068   6-10 Oregon Public Broadcasting                                     $0             $0
11-4-073   9-10 NEON National Ecological Observatory                           $0             $0
           Network, Inc. - CO
11-4-076   6-10 Paleontological Research Institution - NY                      $0             $0
11-4-078   6-10 Adler Planetarium - IL                                         $0             $0
11-4-079   6-10 American Museum of Natural History - NY                        $0             $0
11-4-081   6-1- New Mexico Consortium - NM                                     $0             $0
           Total:                                                         $77,758         $77,758



                                   Other Federal Audits

 Report                            Subject                           Questioned     Unsupported
 Number                                                                Costs           Costs
11-5-011   6-09 Woods Hole Research Center - MA                                $5             $0
11-5-029   5-10 Augsburg College - MN                                     $79,988         $79,988
11-5-048   6-10 Research Foundation of SUNY - NY                           $4,760          $4,760
11-5-056   6-10 University of Central Oklahoma                             $2,000             $0
11-5-061   6-10 Howard University - DC                                     $8,885          $8,885
11-5-068   6-10 University of Massachusetts                                 $593            $593
11-5-070   5-10 Williamette University - OR                              $387,369         $97,017
11-5-072   6-10 Agnes Scott College - GA                                  $26,840         $26,840
11-5-090   6-10 The Colorado College – CO                                  $1,754          $1,754
11-5-100   6-10 University of Missouri System                                 $24             $0
11-5-102   8-10 State of Texas                                           $40,000         $40,000
           Total:                                                       $552,218         $259,837




                                                                                    41
Statistical Data


                     Audit Reports with Outstanding Management Decisions

This section identifies audit reports involving questioned costs, unsupported costs, and funds
put to better use, where management had not made a decision on the corrective action neces-
sary for report resolution within six months of the report’s issue date. At the end of the reporting
period there were 25 reports that met this condition. The status of recommendations that
involve internal NSF management is described on page 37.

   Report                           Subject                    Questioned    Unsupported    Better Use
   Number                                                        Costs          Costs        of Funds
  05-1-005         RPSC Costs Claimed FY 2000 to 2002          $20,934,738            $0            $0
  06-1-023         RPSC 2003/2004 Raytheon Polar               $13,171,290            $0            $0
                   Services
  07-1-003         Triumph Tech, Inc.                              $80,740         $1,192           $0
  07-1-019         ABT Associates                                  $22,716            $0            $0
  09-1-010         Carnegie Institution of Washington              $25,718        $25,718           $0
  09-1-011         Wisconsin Ice Core Drilling Services         $2,475,308       $27,308            $0
  09-1-014         University of Michigan                       $1,604,713     $1,418,889           $0
  09-5-048         8-07 College of the Mainland – TX              $110,629            $0            $0
  09-5-052         6-07 Howard University – DC                  $1,125,491      $662,940            $0
  10-1-001         SUNY at Stony Brook Effort Reporting           $23,656             $0            $0
  10-1-003         University of Nevada – Reno Effort              $54,154            $0            $0
                   Reporting
  10-1-008         University of Delaware Effort Reporting        $34,299             $0            $0
  10-1-012         COL OOI Proposed Budget                             $0             $0    $88,184,480
  10-1-014         JOI 20 Month Incurred Cost                    $392,309       $324,500            $0
  10-1-015         COL 4 Month Incurred Cost                      $195,937       $80,000            $0
  10-4-012         8-08 WGBH Educational Foundation –MA              $791           $776            $0
  10-4-045         12-08 American Institute of Biological         $267,638      $267,638            $0
                   Sciences
  10-4-100         8-09 WGBH Educational Foundation –               $1,881            $0            $0
                   MA
  10-4-165         12-08 Barrow Arctic Science Consortium          $22,314       $22,314            $0
  10-5-016         6-08 State of Arizona                           $71,858       $46,045            $0
  10-5-093         6-09 Polytechnic Institute of New York         $20,905             $0            $0
                   University
  10-5-123         6-09 Chicago State University – IL             $32,443        $32,443            $0
  10-5-126         6-09 St. Louis University – MO                  $18,324            $0            $0
  10-5-130         6-09 Stevens Institute of Technology – NJ       $17,342        $17,342           $0
  10-5-132         6-09 Howard University – DC                   $144,209       $136,273            $0
                   Total:                                      $40,849,403     $3,063,378   $88,184,480




             42
                                                                                 OIG Semiannual Report             March 2011


                                            INVESTIGATIONS DATA
                                       (October 1, 2010 – March 31, 2011)

Civil/Criminal Investigative Activities

Referrals to Prosecutors				  6
Criminal Convictions/Pleas				4
Civil Settlements					0
Indictments/Information				   6
Investigative Recoveries				  $1,948,754.61

Administrative Investigative Activities

Referrals to NSF Management for Action		  21
Research Misconduct Findings			           6
Debarments						                          6
Administrative Actions					75
Certifications and Assurances Received3		 40


                                           Investigative Case Statistics

					Preliminary		                                                               Civil/Criminal		               Administrative

Active at Beginning of Period			33			89			82
Opened					                     120			 26			 39
Closed						107			32			39
Active at End of Period			      46			  83			 82


                      Freedom of Information Act and Privacy Act Requests

Our office responds to requests for information contained in our files under the freedom of
Information Act (“FOIA,” 5 U.S.C. § 552) and the Privacy Act (5 U.S.C. § 552a). During this
reporting period:

Requests Received			  65
Requests Processed			 64
Appeals Received			4
Appeals Upheld			4

Response time ranged between 1 day and 22 days, with the median around 16 days and the
average around 16 days. For three requests involving voluminous records and an approved
10-day extension, our response time ranged between 27 and 30 days.




3 NSF accompanies some actions with a certification and/or assurance requirement. For example, for a specified period, the
subject may be required to confidentially submit to OIG a personal certification and/or institutional assurance that any newly
submitted NSF proposal does not contain anything that violates NSF regulations.


                                                                                                                   43
Statistical Data




            44
                                                          Appendix
                    Peer Reviews
            October 1, 2010-March 31, 2011
The Office of Audits did not conduct a peer review of another OIG
during the past six months. There are no outstanding recom-
mendations from any previous peer review. The National Credit
Union Administration conducted a peer review of NSF OIG Office
of Audits in February 2009; there are no outstanding recommenda-
tions from that review.

The Office of Investigations conducted a peer review of GPO OIG
in February 2011; there are no outstanding recommendations from
that review. The Federal Reserve Board OIG conducted a peer
review of NSF OIG Office of Investigations in March 2008; there are
no outstanding recommendations from that review.




                                                                      45
National Science Foundation
 Office of Inspector General
4201 Wilson Blvd., Suite 1135
     Arlington, VA 22230              National      Office of
         703.292.7100                 Science      Inspector
                                      Foundation     General



      http://www.nsf.gov/oig
	
To report fraud, waste, or abuse,
	
 call our hotline 1.800.428.2189
	




                                                     Semiannual
                                                       Report to
                                                       Congress
                                                                March 2011
